GR-70-98-001
U.S. DEPARTMENT OF JUSTICE
 

AUDIT REPORT
 
 Office of Community Oriented Policing Services
Grants to the City of Wilmington, Delaware Department of Police
GR-70-98-001
 
February 27, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Wilmington, Delaware, Department of Police
(Wilmington Police). The Wilmington Police received a grant of $977,060 to hire or rehire
13 additional sworn police officers under the Phase I program, and $302,681 to redeploy 9
officers under the Making Officer Redeployment Effective (MORE) program. The purpose for
the additional officers and redeployment is to enhance community policing efforts.

Generally, the Wilmington Police properly managed the COPS grants:



Costs charged to the grants were in accordance with grant requirements. As of October
      10, 1997, the Wilmington Police had requested reimbursement of about 58 percent of the
      allowable costs for the Phase I grant. No costs had been incurred for the MORE grant as of
      the time of our audit.

Budgeted funds for police services and the number of officers budgeted remained at or
      above the FY 1994 level, the year before the first grant. In addition, the Wilmington
      Police appeared to be making a good faith effort to fill officer vacancies timely.



However, the Wilmington Police violated some grant conditions:



Grant funds were not always used to enhance community policing efforts. The number of
      officers performing community policing activities increased by the number of officers
      funded under the grants. However, officers were redeployed to non-community oriented
      policing activities for one and one-half months. As a result, we question $40,712 provided
      to fund community oriented policing.

Two Financial Status Reports for Phase I were not submitted timely to the Office of
      Justice Programs (OJP). In two Financial Status Reports which were submitted timely,
      program costs for the Phase I grant were reported inaccurately. 


These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.
#####